<html>
<title> - HEARING ON AMERICANS DETAINED IN IRAN AND MARKUP OF H. RES. 233, EXPRESSING THE SENSE OF THE HOUSE OF REPRESENTATIVES THAT IRAN SHOULD IMMEDIATELY RELEASE THE THREE UNITED STATES CITIZENS IT HOLDS, AS WELL AS PROVIDE ALL KNOWN INFORMATION ON ANY UNITED STATES CITIZENS THAT HAVE DISAPPEARED WITHIN ITS BORDERS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                 HEARING ON AMERICANS DETAINED IN IRAN
                       AND MARKUP OF H. RES. 233,
          EXPRESSING THE SENSE OF THE HOUSE OF REPRESENTATIVES
             THAT IRAN SHOULD IMMEDIATELY RELEASE THE THREE
          UNITED STATES CITIZENS IT HOLDS, AS WELL AS PROVIDE
          ALL KNOWN INFORMATION ON ANY UNITED STATES CITIZENS
                THAT HAVE DISAPPEARED WITHIN ITS BORDERS

=======================================================================

                           HEARING AND MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 2, 2015

                               __________

                           Serial No. 114-54

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                                 
                    U.S. GOVERNMENT PUBLISHING OFFICE
94-833                 WASHINGTON : 2015                    
                                 
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dfb8afb09fbcaaacabb7bab3aff1bcb0b2f1">[email&#160;protected]</a>  
                                
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           HEARING WITNESSES

Mr. Ali Rezaian (brother of Jason Rezaian).......................     6
Mrs. Naghmeh Abedini (wife of Saeed Abedini).....................    13
Ms. Sarah Hekmati (sister of Amir Hekmati).......................    18
Mr. Daniel Levinson (son of Robert Levinson).....................    26

      LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING RECORD

Mr. Ali Rezaian: Prepared statement..............................     8
Mrs. Naghmeh Abedini: Prepared statement.........................    15
Ms. Sarah Hekmati: Prepared statement............................    21
Mr. Daniel Levinson: Prepared statement..........................    28

                               MARKUP OF

H. Res. 233, Expressing the sense of the House of Representatives 
  that Iran should immediately release the 3 United States 
  citizens it holds, as well as provide all known information on 
  any United States citizens that have disappeared within its 
  borders........................................................    51

                                APPENDIX

Hearing/markup notice............................................    56
Hearing minutes..................................................    57
Markup minutes...................................................    58
Markup summary...................................................    60
Mrs. Naghmeh Abedini: Material submitted for the hearing record..    61
   HEARING ON AMERICANS DETAINED IN IRAN AND MARKUP OF H. RES. 233, 
 EXPRESSING THE SENSE OF THE HOUSE OF REPRESENTATIVES THAT IRAN SHOULD 
 IMMEDIATELY RELEASE THE 3 UNITED STATES CITIZENS IT HOLDS, AS WELL AS 
 PROVIDE ALL KNOWN INFORMATION ON ANY UNITED STATES CITIZENS THAT HAVE 
                     DISAPPEARED WITHIN ITS BORDERS

                              ----------                              


                         TUESDAY, JUNE 2, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing on Americans detained in Iran 
will come to order. I am going to ask all of the members to 
take their seat at this time.
    All four of our witnesses are close relatives of these 
Americans who have been away from their families now for far 
too long. Ali Rezaian is the brother of Washington Post 
correspondent Jason Rezaian, whose so-called ``trial'' began 
last week. That is a trial that began in secret. Naghmeh 
Abedini is the wife of Pastor Saeed Abedini. Sarah Hekmati is 
the sister of former U.S. Marine, Amir Hekmati. And Daniel 
Levinson is the son of Robert Levinson.
    We deeply appreciate, I will say to all of the family 
members here, you being with us today to give this testimony 
today. The committee stands in solidarity with each of your 
families. We can't imagine what you are being put through. We 
share your anger. We share your frustration with the position 
that you have been put in.
    Immediately after our hearing today, the committee will be 
passing a resolution that calls for Iran to release all 
detained U.S. citizens immediately and provide information it 
possesses regarding any who have disappeared within its 
borders.
    And I would like to recognize the work of Congressman 
Huffman of California, Congressman Labrador of Idaho, and 
Congressman Kildee of Michigan, and of course, Mr. Deutch, is a 
senior member of this committee. And I know that these members 
have worked to represent the best interests of your families 
and I thank each of them for joining us here on the committee 
today.
    This morning, we will be hearing the stories of these four 
Americans. Jason Rezaian is a journalist who was born and 
raised in California. He hoped to use his position at the 
Washington Post to present a greater understanding of the 
Iranian people. Arrested on trumped-up charges, he has been 
interrogated. He has been held for over 300 days at the 
infamous Evin Prison. Like every other aspect of his case, his 
trial opened last week shrouded in secrecy.
    In September 2012, Iran arrested and later sentenced Pastor 
Saeed Abedini to 8 years for gathering with others to study the 
Bible--as his wife notes, this is a lawful act, even under 
Iranian law, but one which the regime deemed a threat to 
national security. His jailers have asked him to renounce his 
faith and I think he has been jailed for 8 years with threat of 
more if he does not renounce his faith.
    In August 2011, Amir Hekmati, a former U.S. Marine, was 
sentenced to death for alleged espionage. Upon his appeal, the 
sentence was reduced to 10 years. His sister will tell us how 
Amir has been beaten on his feet with cables and tasered 
repeatedly in the kidneys. His father is gravely ill and he had 
gone to Iran to visit family.
    In 2007, Robert Levinson went missing on Iran's Kish 
Island. Eight years later, Iran continues to refuse to assist 
the United States in locating him. As Daniel notes, his father 
is the longest held hostage in American history.
    Each of these tragic cases is unique, but they each 
demonstrate Iran's view of the United States, which is one of 
contempt. Washington Post editor, Martin Baron, wrote last 
week, ``There is no justice in this system, not an ounce of it. 
Iran is making a statement about its values in the disgraceful 
treatment of our colleague.'' This is, by the way, I would 
point out, a country that regularly holds these ``Death to 
America'' rallies. And so the contempt with which they hold 
American hostages is not something new with respect to dealing 
with the Iranian regime and frankly, with the Houthis now 
holding four Americans and refusing to release them because 
they are Americans, we have an extension of this policy into 
Yemen.
    And while our focus this morning is the release of these 
Americans, these cases do call into question the integrity of 
the diplomacy surrounding Iran's nuclear program. As editorial 
boards point out, is this another attempt to pressure the 
administration into weakening its position at the talks? If a 
journalist can be suddenly imprisoned on bogus charges, what 
treatment can international inspectors for Iran's nuclear 
program expect?
    And I would add to this a more fundamental point. If top 
Iranian officials cannot be counted on to assist these 
wrongfully jailed Americans, can they be counted on to honor 
the commitments they make at the negotiating table? Call me a 
skeptic, but we are very concerned about the fact that these 
four Americans have been held for so long and especially this 
show trial which just began last week. So the bottom line this 
morning is that these four Americans should be allowed to come 
home now.
    And I will recognize the ranking member for today's 
hearing, Mr. Ted Deutch of Florida for any opening comments he 
may have.
    Mr. Deutch. Thank you, Mr. Chairman. And thanks to you and 
Mr. Engel for giving us the opportunity to hear from the 
families today. Let me say to each of you today, we will not 
rest until your brothers, fathers, and husbands return home.
    I represent South Florida, Coral Springs, Florida 
especially today, home to the Levinson family. Bob Levinson 
disappeared from Kish Island in March 2007. Since his 
disappearance, Bob's family has received proof of life in the 
form of pictures and recording, yet Bob's whereabouts remain 
unknown. No family should have to go through eight agonizing 
years of not knowing when their husband, father, and 
grandfather will come home. In those 8 years, Bob has missed 
his seven children's birthdays and weddings, his 40th wedding 
anniversary with his courageous wife, Christine, who is here 
today, and the birth of grandchildren.
    In the 2013 CNN interview shortly after his election, 
President Rouhani said, ``With respect to Bob, we are willing 
to help and all the intelligence services in the region can 
come together to gather information about him to find his 
whereabouts and we are willing to cooperate on that.'' It is 
well past time to make good on that pledge.
    For the next 30 days, U.S. negotiators will sit across the 
table from their Iranian counterparts. I appreciate the efforts 
made to raise these cases at every meeting, but the time has 
come to turn up the pressure. We have been told for a variety 
of reasons why the nuclear issue should be dealt with 
separately. But where we are now and at this morning's hearing 
is not about centrifuges. It is not about enrichment capacity, 
PMD, or snap-back sanctions. It is about respect for human 
rights and human dignity and it is about justice.
    The United States Government must not rest until Amir 
Hekmati, Jason Rezaian, Saeed Abedini and my constituent, Bob 
Levinson, are home. And the time, Mr. Chairman, is now.
    I would now ask unanimous consent to yield 1 minute to the 
gentleman from Michigan, Mr. Kildee, who is the author of the 
resolution that we will be marking up after this hearing, 
calling for the release of these individuals in Iran. He also 
represents the Hekmati family.
    Chairman Royce. Without objection, Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I appreciate your help and your 
perseverance on this question. We are here today to hear 
testimony from families whose loved ones are imprisoned in 
Iran, including my constituent, Amir Hekmati.
    It is important that we hear their stories. It is important 
that the American people hear the names, Amir Hekmati, Jason 
Rezaian, Saeed Abedini, Bob Levinson, and not let their cases 
or their stories fade. Congress should know their names. The 
American people should know their names. They are being 
unjustly held in Iran and they should be released so they can 
be with these family members.
    The world is watching Iran and today, Congress and this 
committee will speak with one voice considering House 
Resolution 233 that calls on Iran to simply do one thing, 
release the Americans that it holds. It is very simple. This 
resolution states and this Congress will say with one voice 
that Iran cannot hold Americans as political prisoners, people 
like Amir Hekmati, if it wants to be taken seriously in the 
global community.
    Let me be clear. The onus is on Iran to do what is right, 
to release Amir and the other Americans that it holds.
    So to the families today, I look forward to hearing your 
testimony, to hearing your stories, to help the American people 
and this Congress understand that each of these individuals 
deserve the rights and respect that any human being does. And I 
look forward to the day when we can welcome them all home.
    With that, Mr. Chairman, thank you so much and I yield 
back.
    Mr. Deutch. Mr. Chairman, I now ask unanimous consent to 
yield 1 minute to the gentleman from California, Mr. Huffman, 
who represents the Rezaian family.
    Chairman Royce. Without objection.
    Mr. Huffman. Thank you, Mr. Chairman. And I want to thank 
you for the opportunity to be here to welcome my constituent, 
Ali Rezaian, and to express my solidarity with him and his 
family and all of the families here and the many people around 
the world who are watching this important hearing today.
    It is important that we do speak with one voice today, 
especially given the fact that there is a spectacle of a trial 
taking place in Iran involving Jason Rezaian. It is important 
that the Iranian regime understand that the whole world is 
watching. And our bipartisan expression, by passing this 
importance piece of legislation, is one of the best ways we can 
make that statement.
    I want to thank my colleague, Dan Kildee, for his 
leadership in authoring this bipartisan bill. And I want to 
thank the committee for considering the bill on its own merits. 
Whatever issues or even disagreements we may have about broader 
issues, we are able to speak with one voice on this important 
matter today and that is important for all of these Americans 
who are unjustly detained and for their families and supporters 
around the world. Thank you very much.
    Mr. Deutch. Thank you, Mr. Chairman. I yield back the rest 
of my time.
    Chairman Royce. Thank you, Mr. Deutch. Without objection, I 
think I will also recognize Mr. Raul Labrador from Idaho for 1 
minute if he would like to comment.
    Mr. Labrador. Thank you, Mr. Chairman. And thank you for 
letting me speak, even though I am not a member of the 
committee.
    And Naghmeh, welcome to our committee today and to 
Congress. Not only is she a constituent and her husband a 
constituent, but she is a dear friend of many of my dear 
friends who love her and who I hear from almost on a daily 
basis about your husband.
    On December 20 of 2012, Reverend Saeed Abedini, a 
naturalized U.S. citizen and convert to Christianity, born in 
Iran, was imprisoned on charges of undermining national 
security for setting up orphanages in partnership with Iranian 
Christians. His closed trial was held January 22, 2013, and he 
was convicted and sentenced to 8 years in prison.
    I commend President Obama for advocating for the release of 
your husband and I know that he has spoken to Iran's President 
on this. But I also believe that I am concerned that the 
Iranian Government is more interested in words than in actions. 
If the Iranian Government is sincerely committed to action, a 
good first step would be to immediately release your husband 
and all the other people that are being held captive in Iran. 
And I believe that all negotiations with Iran should cease, in 
my opinion, if this is not the first step that they engage in. 
If they are not willing to become part of the world community, 
we should not be negotiating with them at all. And I hope that 
this hearing today will help us to get that goal completed. 
Thank you very much for being here and God bless all of you.
    Chairman Royce. Thank you. We will go for 1 minute to Ms. 
Ros-Lehtinen, chairman of the Subcommittee on the Middle East 
and North Africa.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. And I 
praise the courage, the strength, and the love that our 
witnesses have shown for their family members who are being 
used as pawns by the Iranian regime. Bob, Saeed, Amir, and 
Jason are American citizens being held in Iran, but they are 
much more than that. They are fathers and sons and husbands, 
brothers, uncles, and friends. Yet, for years, they have 
languished in Iran's most notorious prisons and more needs to 
be done to secure their release now.
    The U.S. must not negotiate to reward the Iranian regime 
while continuing to pursue this weak nuclear deal with a regime 
that continues to imprison American citizens. We must make it 
clear in no uncertain terms that we will not allow the regime 
to hold American citizens and deny them their due process while 
torturing them and subjecting them to inhumane treatment. The 
administration must realize that while it expresses niceties to 
Iran, the Iranian regime continues to imprison American 
citizens and violate their human rights. This must stop now.
    Thank you, Mr. Chairman.
    Chairman Royce. And lastly, 1 minute to Mr. Chris Smith, 
chairman of the Subcommittee on Africa, Global Health, Global 
Human Rights, and International Organizations.
    Mr. Smith. Thank you very much. Thank you for calling this 
extraordinarily important hearing, very timely. I can only 
imagine the emotional agony, especially in the middle of the 
night, each of our distinguished witnesses experience as you 
pray, as you think and ponder what your loved one is going 
through. Naghmeh is back again for the fourth time now, 
testifying twice before my subcommittee. She has been 
absolutely tenacious on behalf of Saeed Abedini, as have all of 
the other witnesses, calling for their unconditional and 
immediate release.
    It seems to me to be folly in the extreme that we are 
engaging in a negotiation on nuclear--potential nuclear 
weapons, when Americans are being held hostage by a 
dictatorship. I call again, as we all do, upon the 
administration to make this even more of a priority. Let us not 
forget at the first hearing where Naghmeh testified, she had 
gone down to the State Department and they told her there is 
nothing we can do. There is so much all of us can do. This 
resolution is another step in that direction and hopefully, we 
in a totally bipartisan way, will express the will of the 
American people, please, let these innocent people go.
    Chairman Royce. We need to welcome the newest member of our 
committee here, Congressman Daniel Donovan, Jr. He recently won 
the special election in Staten Island, New York. Previously, he 
served as District Attorney in Richmond County. So welcome, Mr. 
Donovan. And the family just had a baby girl, I am told.
    Mr. Donovan. We did, just 12 days ago.
    Chairman Royce. Well, congratulations, Mr. Donovan. And we 
now will introduce our panel, the witnesses here today.
    Mr. Ali Rezaian is the brother of Washington Post 
correspondent, Jason Rezaian, whose trial began in Iran last 
week in secret. And he has traveled, Mr. Rezaian has traveled 
from California to be with us today. We welcome him.
    Mrs. Naghmeh Abedini is the wife of Pastor Saeed Abedini, 
who is currently serving an 8-year sentence in an Iranian 
prison. Mrs. Abedini grew up in Boise, Idaho and has been 
actively involved with her church congregation for many years.
    Sarah Hekmati is the sister of Amir Hekmati, a former 
Marine, now imprisoned in Iran for 4 years. Ms. Hekmati has led 
the campaign for his freedom since his imprisonment in 2011.
    And Mr. Daniel Levinson is the son of Robert Levinson, who 
has been missing in Iran since 2007. Mr. Levinson is an analyst 
at a Government contractor and he is based in Coral Springs, 
Florida.
    And we appreciate all of our witnesses being with us today. 
Without objection, all of the witnesses' full prepared 
statements are going to be part of the record and members here 
will have 5 calendar days to submit any statements or questions 
or extraneous material for the record.
    And Mr. Rezaian, if we could start with you, if you could 
summarize your remarks. Thank you, sir.

    STATEMENT OF MR. ALI REZAIAN (BROTHER OF JASON REZAIAN)

    Mr. Rezaian. Chairman Royce, Ranking Member Deutch, and 
members of the committee, thank you for inviting me here today. 
My name is Ali Rezaian, and I am here on behalf of my brother, 
Jason Rezaian, who has been held for nearly a year in a prison 
in Tehran for activities that he did not commit.
    My brother has always been a passionate storyteller. Since 
2012, he has been serving as the Tehran Bureau Chief for the 
Washington Post. Jason's reporting in Iran has ranged from 
stories about everyday life in Tehran to baseball's growing 
popularity with Iranian citizens. His stories always went 
beyond stereotypes, reported on facts, and informed readers 
about the rich and complex fabric of Iranian society.
    While simply doing his job, Jason and his wife were taken 
without warning and he has now been detained in Evin Prison for 
315 days.
    While most people know Jason as a journalist, I know Jason 
as a brother, son, husband, and devoted uncle. Jason is my 
little brother. In fact, when he was born my parents turned to 
me for ideas about what to name him. I suggested the name Jason 
because at the time my best friend's name was Jason. Today, 
Jason is my best friend.
    Like a lot of kids in our neighborhood, Jason grew up 
infatuated with Star Wars and he always has been an 
enthusiastic Oakland A's fan. I proudly watch Jason grow up to 
be a truly, truly remarkable man with intellect, endless 
curiosity, joy for life, and the ability to tell a story led 
him into journalism where he has excelled. But above all, Jason 
is a loving family member.
    In 2011, my own family suffered the tragic and unexpected 
death of our 5-year-old son Walker. Jason was working in Iran 
at the time when I called him with the news. Without a second 
thought, Jason got on a plane in the same day to come to 
California to comfort and support our family. I cannot tell you 
how much that meant to myself, my wife, as well as our parents.
    In addition to being a devoted son and brother, Jason 
became a husband 2 years ago when he married Yeganeh Salehi. 
Sadly, Jason has now spent nearly half of their marriage in 
prison. My son Paxton, who is seven, asks me daily when is 
Uncle Jason going to be released from prison? With the help of 
this committee and others from around the world, I believe 
Uncle Jason and Paxton can still see an A's game in Oakland 
together this summer.
    Let me be very clear. The charges against Jason are false. 
Jason did sometimes write about Iran's domestic and foreign 
policy, but this is perfectly legal conduct recognized around 
the world as practicing journalism. Iran's treatment of Jason 
has been and remains in violation of international human rights 
laws that Iran has repeatedly promised to uphold. Yet, despite 
being party to treaties that protect free speech and due 
process, Iran has afforded Jason neither of these fundamental 
rights.
    Now more than ever, I am concerned about Jason's health and 
welfare. While in prison, Jason has suffered painful and 
debilitating infections. He has lost more than 40 pounds. He 
also has chronic high blood pressure and a respiratory 
condition which was exasperated during the hot summer months in 
Tehran. He is often kept in solitary confinement and is allowed 
only minimal human interaction.
    I appreciate the support of all of the very good people who 
want to free Jason. The Washington Post's Chief Foreign Head is 
here with us today. President Obama has spoken about Jason 
publicly. The Washington Post's legal team led by Jay Kennedy, 
has been unwavering in its support of Jason and me. Thank you 
all. It means more than words can express.
    It is time for Jason to come home. It is time for the 
families here to all be reunited. Releasing Jason is the humane 
thing to do and it is the right thing to do and I hope that 
Iran will do so immediately.
    My mother wishes that she were here today to tell you all 
about Jason. But she is currently in Tehran so that she can 
more closely follow the situation with his trial. With the 
committee's indulgence, I would like to play a short video that 
perfectly sums up how we all feel.
    Chairman Royce. Without objection.
    [Video played.]
    Mr. Rezaian. It is time for Jason to come home to his 
family. It is time for the loved ones of everyone on this panel 
to come home to their family. Iran could make that happen today 
and should do it without further delay. Thank you for your time 
and I look forward to your questions.
    [The prepared statement of Mr. Rezaian follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    			----------                              

    Chairman Royce. Thank you, Ali. Mrs. Abedini.

   STATEMENT OF MRS. NAGHMEH ABEDINI (WIFE OF SAEED ABEDINI)

    Mrs. Abedini. Thank you, Chairman Royce, Ranking Member 
Deutch, and Mr. Engel and members of the committee and over 
917,000 who have signed petitions for the release of my 
husband, who surrounded our family with their prayer and 
support. I am thankful for the State Department for speaking to 
Iran on the sidelines and for the President who has spoken out 
and also gave me an opportunity to meet with him in January of 
this year.
    But as Mr. Rezaian mentioned, it is time to bring Saeed 
home. I have been before the Human Rights Committee and our 
Foreign Relations Committee a few times and I just think about 
3 years ago when I was so hopeful that maybe this hearing will 
bring him home, maybe something will happen. And I am really 
hoping that this will be it.
    I stand before you today not as a lawyer or a politician. I 
am actually very scared of speaking in public, but as a wife of 
a husband who is in prison in Iran because of his Christian 
faith, and the only reason I put myself out there and speak is 
to bring my husband home and to bring the father of my children 
home.
    Saeed is an American citizen who was sentenced to 8 years. 
As mentioned, the Iranian Government has said they would add on 
more years because he refuses to deny his Christian faith. He 
has been in the Iranian prison for his Christian faith and for 
gathering with other believers 13 years earlier, under a 
different President who was actually allowing it, and again, 
this is protected by Iranian law. But the Iranian Government 
has said that peaceful gathering of religious minorities is a 
threat to their national security.
    Every day, I wake up with an excruciating pain as I 
understand many of the families wake up. Life is no longer 
carefree. You wake up with a pain. Most mornings, I wake up in 
a hotel room or I am in airports and I wake up to the reality 
of our life. And my children have had to go without a father 
and a mother for 3 years now. It is very difficult to try to 
choose between being at home with my children when they need me 
the most and as they are hurting and they want to hold on to at 
least one parent, and trying to advocate for my husband. I just 
can't imagine not doing everything I can every single day of my 
life until my husband is home.
    So it is very painful for me to have to leave my kids 
behind. I just came back a few days ago from speaking before 
the European Parliament and the German Parliament and trying to 
get their support. And my children, I had to explain to them 
why again I had to travel, as they were desperately holding on 
to me and asking me not to go. And every time I tell them it is 
for Daddy. I am going to bring your Daddy home.
    It is very difficult going back to them and not being able 
to have solid answers. I really hope that this will be the time 
that we can bring Saeed home. Saeed has been tortured. The 
first few months of his imprisonment he was beaten pretty badly 
where his internal injuries and bleeding started. He has been 
sent to an exile prison, Rajai Shahr prison. He has been moved 
many times. He was put in a murderers' ward where he was told 
by the head of the new prison that if they find out he is a 
convert, they will kill him. He was literally in the lion's den 
when he was in the murder ward in Rajai Shahr and he was 
covered with lice and doing horribly physically and 
psychologically. He has been put in and out of solitary three 
times now. The last time he was put in solitary was actually a 
few months ago a few days after we made that framework 
agreement with Iran, he was put in solitary again.
    I came to the United States 30 years ago and the greatest 
gift that this country gave me was the freedom to choose Jesus 
Christ as my lord and savior. And for that I am forever 
grateful. I felt safe. I felt I came to a safe place, a country 
that would protect me and would stand up for my freedom, 
especially for my religious freedom. And Saeed is in that 
situation right now.
    He refuses to deny his Christian faith and the Iranian 
Government continues to harass him and threaten him with more 
imprisonment. They have put him in and out of solitary to break 
him. I am not worried just about his physical pain, but his 
psychological. They are trying to--when they release Saeed, 
they want to make sure they release a very sick person and 
Saeed has held on to his faith and refused. But I am very 
concerned. I think time is of the essence. I just want to 
finish with this verse, if I can for a few minutes.
    A family relied on their personal relationship. When you 
are going through a trial, the dos and don'ts of religion can't 
do anything for you. It is only a relationship with God through 
the price that Jesus Christ paid on the cross that you can go 
through the trials of life with peace and strength. No religion 
can give you that. It has to be a relationship with God. And I 
believe this is where the blessing of this nation came from and 
the freedom we have is because of the blessing that comes from 
our Lord, Jesus Christ.
    Our family has relied on this personal relationship to 
endure this pain and to overcome our daily worries and concern. 
I want to conclude with the story in the Bible that describes 
our current situation. It includes a fiery furnace, threats of 
death, and a Savior in the midst of it. It is the story of 
Shadrach, Meshach, and Abednego. And as you might know, 
Shadrach, Meshach, and Abednego refused to worship other gods 
and they were told that they will be put in the fiery furnace. 
And they say, ``O King, we do not need to defend ourselves 
before you. If we are thrown into the blazing furnace, the God 
whom we serve is able to save us. He will rescue us from your 
power. But even if he doesn't, we want to make it clear to you, 
Your Majesty, that we will never serve your god.'' And this is 
our situation.
    Saeed refuses to recant his faith. And they command the 
furnace to be heated more and in the end the king says, ``I see 
four men unbound walking in the fire.'' The fourth man was 
Jesus and Jesus has been with us through this fiery furnace. It 
has been excruciating pain and it has been difficult to even 
breathe most days. But I am here to say that Jesus has been 
with us through every second of it, with me and my family and 
that invitation to open to anyone who wants to receive Him. 
Thank you.
    [The prepared statement of Mrs. Abedini follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
           
                              ----------                              

    Chairman Royce. Thank you, Mrs. Abedini.
    Sarah.

    STATEMENT OF MS. SARAH HEKMATI (SISTER OF AMIR HEKMATI)

    Ms. Hekmati. Thank you. Can you hear me? Mr. Chairman, 
Ranking Member, and members of the committee, thank you for 
giving me the opportunity today to testify about the arbitrary 
imprisonment of my brother, Amir.
    And in support of Congressman Kildee's House Resolution 
233, with your permission, I would like the opportunity to 
submit additional material for the record.
    Chairman Royce. Without objection.
    Ms. Hekmati. This is the first opportunity our family has 
received in nearly 4 years of my brother's imprisonment in Iran 
and we appreciate the time and effort that went into making it 
possible for me to appear today on Amir's behalf.
    For over 3 years, our family has been living a nightmare. 
Every day we wake up hoping that it is the day we find out Amir 
will finally be released and is returning home. We are in 
constant fear for his health, his safety, and his life. The 
fact that Amir is the first American to be sentenced to death 
by Iran since 1979 adds to our fears. The fact that he has been 
held in Evin prison longer than any other American in history 
is emotionally draining.
    My parents came to this country not because they had to, 
but because they saw opportunities here that they wanted for 
their future children. My dad has a PhD in Microbiology and was 
a college professor and my mother an accountant, and it is in 
gratitude for the opportunities afforded to us as Americans 
that my brother Amir was proud to serve in the Marine Corps.
    I want to be very clear. While our family takes issue with 
the actions of a certain faction of the Iranian regime, we know 
this is not a reflection of the government as a whole nor of 
its people. Iran is the country of my parent's birth, and as a 
family we were always raised to be proud of our heritage.
    It is this pride in our Iranian heritage and importance of 
family that led Amir to make his first trip to Iran in August 
2011. It is a trip that thousands of Iranian-Americans make. I, 
myself, have made this trip twice. Amir had last seen our 
grandmother when he was a young child when she visited America. 
He felt it was his duty to visit her after all these years 
because she was too elderly to come to the US anymore. On 
August 29, 2011, only days away from his return home to 
Michigan, Amir was preparing himself to attend a family 
gathering. However, Amir never showed up. When our family in 
Iran went to the cousin's apartment he was staying at, they 
could see the apartment had been broken into and a struggle had 
taken place. Amir was missing. Also gone were his computer, 
camera, and passport. Our relatives in Iran spent every day 
contacting officials, searching Tehran for Amir hoping to find 
out who took him, where they took him, and why.
    Two and a half months later, we found out that Amir had 
been imprisoned. At that time, both the Iranian and the United 
States Governments urged us not to go public with Amir's 
imprisonment, asking that his imprisonment not go public and 
that it be handled behind-the-scenes. They both suggested that 
by going to the media, Amir would be put in more danger and his 
case would become highly politicized. Our family learned later 
that our silence allowed Amir to suffer the worst torture 
imaginable.
    As a sign of respect for both Iran and the U.S., Amir 
offered nothing but transparency when applying for a visa to 
Iran. He was assured that his past experience in the military 
would not be an issue. However, on December 2011, Iran reported 
that they had caught an American spy and my brother's face 
appeared on Iranian-state television.
    Our family received no warning of this by Iranian officials 
and instead were faced with having to witness our brother be 
wrongfully accused before being allowed to defend himself in 
court. Days later, Amir was tried by Judge Salavati in the 
Revolutionary Court. Amir did not meet his court-appointed 
attorney until 5 minutes before his trial started. Relatives 
were not allowed to attend his trial. It was held behind closed 
doors and in only 15 minutes, Amir was charged with espionage, 
corrupting the earth, and waging war against God. By the end of 
the week, the media had announced without prior notification to 
our family in the U.S. that Amir was sentenced to death. He 
became the first American to receive the death sentence since 
1979.
    In March 2012, an appeals court overturned the charges 
against Amir and annulled his death sentence, stating that 
there was insufficient evidence to let the conviction stand. A 
new trial took place in December 2013. That was when he found 
out he had been sentenced to 10 years in prison for cooperating 
with a hostile government, presumably because of his military 
service to the U.S. The conviction of this crime confuses us. 
Based on the Supreme Leader's own mandate, service in a foreign 
military for a dual national is not illegal in Iran. Relations 
between the U.S. and Iran are at a historic point. Even 
according to Amir's Iranian attorney, how can the U.S. still be 
considered a hostile country to Iran when we sit across from 
them at the negotiating table for the first time in decades?
    Iran wants to rejoin the international community, expand 
their tourism industry, and help their economy grow. What 
message does it send to Iranians who live abroad when Amir is 
held as an innocent man behind the walls of Evin prison for 
committing no crime? As a tourist, Amir was kidnapped from the 
home of his relatives and taken to Evin prison. As a tourist, 
he was held in a one meter by one meter cell, allowed out for 
only 10 minutes a week to stretch his legs. He was beaten on 
his feet with cables, tasered repeatedly. He was held for 
months in solitary confinement.
    To date, our family feels as though we have exhausted every 
option. We have reached out to the U.N., human rights groups, 
Islamic organizations, ambassadors from other nations and we 
have engaged with high level officials from the
    U.S. and Iran. Our only reassurance is being told by the 
U.S. that Amir's case is being raised on the sidelines of the 
negotiations and our reassurance from Iran is silence, only to 
be told that Amir is an Iranian and that his case will be dealt 
with according to Iranian law.
    We thank Congressman Kildee and Senator Stabenow for their 
efforts on our behalf, particularly arranging a meeting for our 
family with Vice President Biden last month. We were very 
grateful for his time and the compassion he showed my father 
and our children who are 5 and 7 years old. After our meeting, 
Vice President Biden tweeted about Amir. It was the time some 
public mention had been made.
    Our family is under no illusion that there are things we 
cannot be told about the effort the government is undertaking 
on Amir's behalf, but it does not make sense to our family how 
previous American prisoners in Iran have been released when the 
United States had no diplomatic relations with Iran and were 
not sitting across the negotiating table much sooner than Amir.
    Now is the time that this issue could and should be 
resolved and yet August will mark 4 years Amir has been taken 
from our family. And that brings me to my final point. Our 
father has terminal brain cancer. Within the last year, he has 
suffered several strokes. Our father now requires 24-hour care. 
My mother could not be with us today. She is with my father 
right now and she misses her son very much. Our father holds 
on, hoping to hold Amir in his arms again, but fearful that he 
will not. And he now resides in a wheelchair needing assistance 
for everyday things you and I take for granted. The father Amir 
left behind to visit his relatives in Iran is no longer the 
same man now. We ask you to please do all that you can to help 
fill this chair and bring Amir home. Thank you.
    [The prepared statement of Ms. Hekmati follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
    
                            ----------                              

    Chairman Royce. Thank you, Sarah. Daniel.

   STATEMENT OF MR. DANIEL LEVINSON (SON OF ROBERT LEVINSON)

    Mr. Levinson. Thank you, Mr. Chairman. My name is Daniel 
Levinson and I am the eldest son of Robert Levinson who was 
taken hostage on the Iranian island of Kish on March 9, 2007. 
Unlike the other three Americans currently imprisoned in Iran, 
the government has never acknowledged arresting him. The 
closest evidence of this appeared less than 3 weeks after he 
went missing, when the Iranian state-sanctioned media outlet 
PressTV reported that he was ``in the hands of Iranian security 
forces'' and could be ``freed in a matter of days.'' Three 
thousand seven days later, we are still waiting for him to be 
released and returned home to us.
    My father is the longest-held hostage in American history. 
No U.S. citizen has been held overseas longer than he has, 
ever. Our family's hearts break for the other families here, 
who have suffered the wrenching agony of having their loved 
ones away from them for so long all of these years. Yet my 
father has been held four and a half longer than any of the 
others. No family should ever have to go through what we all 
are going through.
    To say these past 8 years and 3 months have been a 
nightmare would be an understatement. I am one of my parents' 
seven children, and my mother, who is here with us today, just 
marked their 41st wedding anniversary last month. My father has 
missed so many milestones: The births of three grandchildren, 
two weddings, numerous high school and college graduations. To 
put it simply, he has missed too much of our lives.
    There is not a day that goes by when we don't think of him, 
how much he must be suffering, and what we can do next to bring 
him home. In November 2010, we were emailed a 1-minute video of 
my father from an anonymous email address where he looked 
gaunt, ill, and desperate. The last words we heard from him in 
that video were ``33 years of service to the United States 
deserves something. Please help me.'' Six months later, we 
received several pictures from another anonymous email address 
where he held various signs in broken English that appear to 
have been produced by his captors in order to taunt the United 
States Government. We are extremely worried about his health. 
He is 67 years old, with several pressing health concerns 
including diabetes, hypertension, and gout.
    My father had a long career serving the United States. He 
was still a contractor for the U.S. Government at the time of 
his capture, and therefore the U.S. has a moral obligation to 
help bring him home.
    We have sought help through numerous heads of state, 
Presidents, prime ministers, foreign ministers, NGOs, private 
citizens, and religious leaders here and around the world, to 
no avail. My mother, aunt, and I even traveled to Iran in 2007 
to meet with officials there, but the trip ended with no 
progress made on his case. This has been a bipartisan effort 
spanning two U.S. presidencies, with lawmakers from both 
parties working to bring him home. We are eternally grateful 
for the efforts of members of this committee, including 
Congressman Ted Deutch, who represents our home district in 
Florida, and Congresswoman Ileana Ros-Lehtinen, who have 
continued their efforts to highlight my father's case on the 
House Foreign Affairs subcommittee on the Middle East and North 
Africa. Senator Bill Nelson has been our staunch advocate and 
has given us voice to the powerful. However, my father is still 
not here with us.
    We were encouraged by the election of Iranian President 
Hassan Rouhani, and the appointment of Javad Zarif as foreign 
minister. They have sought active engagement with the United 
States on a number of issues, but to our knowledge, have not 
engaged on the topic of my father's capture in their country.
    My family believes this engagement is by far our best 
opportunity to bring my father home safely, and we need 
American officials to ramp up this engagement as they meet in 
the next few weeks over Iran's nuclear program. We need, in 
fact, we implore negotiators to take a more aggressive approach 
than merely asking for Iran's help in locating him. It is true 
that those involved in the talks may not know where my father 
is, or what happened to him, but we are certain that there are 
people in Iran who do. We believe that, if the Iranian 
Government had the will and motivation to locate my father and 
send him home, they most certainly could.
    My family will never rest until our father is back home 
with us, and we can only hope the members of this committee, 
along with those involved in discussions with Iran, share that 
unwavering commitment. My father could be anyone's father, or 
grandfather, or brother, or husband. He is all of those things 
to my family. He is an American. And America should not rest 
until one of its own is returned home to the family that loves 
him more than life itself. Thank you.
    [The prepared statement of Mr. Levinson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
        
                              ----------                              

    Chairman Royce. Thank you. I will go to Mrs. Abedini and 
Ms. Hekmati for a question. I have read the reports on the 
torture in prison. What I am interested in right now is the 
mental well-being or the condition psychologically. If I could 
ask you about your husband and about your brother.
    Mrs. Abedini. Thank you, Mr. Chairman. Actually, his mental 
condition is my biggest worry even though his physical 
condition is not very well. He doesn't get very much protein or 
clean water and he is still suffering from the internal 
injuries. But his mental is--him being taken in and out of 
solitary three times now, being put in exile prison, being put 
in a murderers' ward, the continuous pressure they have tried--
he is seen in early April. There was close to 50 prisoners in 
his prison that were executed in Rajai Shahr. He is 
continuously told that he should be given the death. He should 
be--because he is a convert, because he is a Christian, he is 
continually told he will never come out unless he denounces his 
faith. His family, his father who is visiting him in Iran right 
now is the greatest worry he has is his mental condition and 
the psychological games they are playing with him. My biggest 
worry as a wife and mother is the condition I will have to deal 
with when he comes home.
    Chairman Royce. Thank you. Sarah.
    Ms. Hekmati. Similar to Naghmeh, she refers to 
psychological games. Amir has been strung along for nearly 4 
years. He said that during his court appearance for the 15 
minutes that it was determined he was worthy of being sentenced 
to death, that his attorney had reassured him that he could be 
acquitted and be released in a year max. At that point he was 
already serving 6 months. Now it is going on 4 years.
    He has been told things like his mother was killed in a car 
accident as a part of mental torture. At that time, he had no 
way of communicating to our family to even determine whether 
that was true or not. It has been a long ride for him to the 
point that he has become emotionally numb and just doesn't 
really know what to expect any more. So we do really worry 
about his emotional well-being as well.
    Chairman Royce. Last week on the eve of the beginning of 
Jason's so-called trial, Washington Post editor Martin Baron 
issued a statement that read in part: ``It is worth recalling 
what kind of system we are dealing with. Jason was arrested 
without charges. He was imprisoned in Iran's worst prison. He 
was placed in isolation for many months and denied the medical 
care he needed. His case was assigned to a judge 
internationally notorious for human rights violations. He could 
not select the lawyer of his choosing. He was given only 1\1/2\ 
hours to meet with a lawyer approved by the court. No evidence 
has ever been produced by prosecutors or the court to support 
these absurd charges. The trial date was only disclosed to 
Jason's lawyer last week and now, unsurprisingly, but 
unforgivably, it turns out the trial will be closed.''
    Mr. Rezaian, have you been able to have any communication 
with your brother?
    Mr. Rezaian. I haven't spoken to my brother since last 
July. My mother went to Iran and has been able to speak to him 
just recently. The trial did begin last week and it adjourned 
after 1 day.
    Chairman Royce. How are his spirits right now?
    Mr. Rezaian. Well, I think that it has been very difficult 
for him to be so isolated. He is a very social person. I think 
we are thankful that there is a process that is moving along, 
but as we can see, we don't know what will come out of it. He 
is happy that my mother is there. Although he is really 
concerned because neither his wife nor my mother were able to 
go to the trial when they started last week.
    Chairman Royce. What would be the duration this charge 
brings with it, what consequence?
    Mr. Rezaian. You know, we have heard different things, but 
I think that it could be years in prison is what we have heard, 
possibly 10 years in prison or more.
    Chairman Royce. Were there any other thoughts that any of 
the witnesses would like to express at this time before I go to 
Mr. Engel?
    I thank you all for your testimony and we will now be going 
to Mr. Eliot Engel of New York for his questions.
    Mr. Engel. Well, thank you very much, Mr. Chairman. And I 
want to thank all four of you for the courage you have and for 
your extraordinary testimony. I want to tell you something you 
already know. I see Mr. Kildee is here. There isn't a moment 
that Mr. Kildee hasn't stopped to talk to me about this case. 
He has been relentless. Mr. Deutch as well. Mr. Huffman. I just 
want you to know that we are all with you.
    We cannot imagine the grief you are going through. And our 
hearts are with you. We will do everything we can to bring them 
home. And that is why we are having this hearing because we 
hope that at this crucial juncture with less than a month to go 
before there is supposedly an agreement with Iran, this is the 
time to really bring forward the cases of your loved ones. This 
is the time.
    I must tell you that I feel so angry that at a time when we 
are sitting with Iran and a number of you alluded to this and 
mentioned this in your testimony, we are sitting with them to 
discuss a new arrangement between our two countries and they 
continue to poke us in the eye and continue to spit in our 
face. I don't know how else to say it. It is ludicrous.
    Mr. Rezaian, your brother, at this juncture when we are a 
month away from perhaps having an agreement that they would 
dare to put someone on trial, in a show trial, it just 
infuriates me. It just infuriates me. While we don't want to 
tie your cases to our talks because we don't want Iran or 
others to bring in other issues, the fact of the matter is that 
it is just infuriating and outrageous that they would do this; 
that they would just spit in our faces.
    So I just want to tell you that we are not letting any of 
these four cases drop. We are united in trying to help you. And 
I want to just thank you, all four of you for your tremendous, 
tremendous courage. You know, if I let myself go, I would 
probably cry. That is how genuine all of you are. So thank you 
for your courage.
    Let me ask anyone who would care to answer, we want to 
obviously do everything possible to help bring them home and 
create that kind of atmosphere. When we question the 
administration, the President's people, when we are briefed and 
we talk to them in private conversations, when we are briefed 
as a Congress, they tell us that they raise the issue of the 
American hostages each and every time they meet with the 
Iranians. Is there anything that you can tell us that has not 
been done that you would like to see us do or see the 
administration do? Is there anything more than we can do?
    I know having this hearing and us timing this hearing today 
is obviously something that we are attempting to draw attention 
to it, but is there something else that any of you think that 
we should be doing perhaps?
    Ms. Hekmati.
    Ms. Hekmati. Thank you for asking that question because it 
has been our frustration and it is not very comforting to know 
that at this point and this juncture where we are at that it is 
just being raised. And our question consistently when we ask 
what the substantial response is from the Iranians is nothing 
very substantial other than in my case, for example, with Amir, 
that he is a dual national and they don't recognize his 
American citizenship. So I don't know how often, if this is 
being raised on a regular basis, are they just giving a flat 
response or no response or what is the answer that they are 
receiving?
    Mr. Engel. Thank you. I can tell you it would just be 
ludicrous and outrageous for us to have a deal with Iran that 
doesn't include the bringing home of our hostages. You know, we 
all remember, at least if you are as old as I am, 1979, when we 
had these American hostages being held for more than a year and 
the whole country was riveted on it. And then finally they were 
brought home. Well, we want the country to be as riveted with 
your loved ones so that they can come home safely. So I just 
want to thank you all for your courage.
    And for me, the devil is in the details. I am going to see 
what the agreement is before I decide how I am voting, but it 
would just be ludicrous for us to pretend that it is business 
as usual. We are going to have a nice agreement with Iran. We 
are going to look to the future. We are going to have better 
relations and we are all going to hold hands and skip away 
happily and Americans are rotting in prison? That is not 
acceptable to me. And I hope it won't be acceptable to this 
Congress. Thank you for your courage.
    Chairman Royce. Well, Mr. Engel, if I could offer one 
addendum to that, I think it would also be important, I talked 
to a young Iranian who recently came to this country over the 
weekend and she told me, I asked her about her experiences. She 
said her parents brought her here because she would start every 
morning with these chants in school, ``Death to America, Death 
to Israel.'' And she said this at home and her parents said, we 
are Jewish. We are concerned with the indoctrination. It is the 
indoctrination of children in Iran today which produces the 
types of jailers that want to torture those of other faiths. Or 
want to torture Americans.
    And I think it would be important that Iran cease this kind 
of indoctrination of its children, stop the process of 
poisoning the minds of the next generation because they are 
setting up a condition in which when they become jailers or 
they become judges, they treat other human beings this way.
    We go to Ileana Ros-Lehtinen from Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. And 
thank you for sharing your families' stories. I can't even 
begin to imagine the toll that this has taken on each and every 
one of you and your loved ones, but it is so important that you 
are here today and that you share the truth about what is going 
on in Iran inside this so-called moderate regime that we have 
got with Rouhani. And it is no secret that the human rights 
situation in Iran under Rouhani, who was selected by the 
Supreme Leader, has actually gotten worse and he continues to 
use your loved ones as pawns.
    The Iranian regime responds to strength and they see us as 
weak right now, but our American citizens must not have a 
target on their back when they go to places like Iran and 
anywhere else because of this perception by the Iranian regime 
of us being weak. And your loved ones are American citizens. We 
demand their immediate, safe, and unconditional return now.
    I wanted to ask you about these nuclear talks. Do you worry 
that when the negotiations and we know with this deadline, but 
it will go on, do you worry that our leverage will not be there 
or some of you believe that we should not be discussing your 
loved ones during these negotiations, that it is a separate 
item?
    So I wanted to ask your feelings about, your thoughts about 
how the nuclear negotiations and these talks impact the 
imprisonment or the disappearance of your loved ones.
    Mr. Levinson?
    Mr. Levinson. Thank you. I appreciate that question because 
I think it is very important and relevant to the current 
situation. My family has always been supportive of engagement 
with the Iranians. We do worry that regardless of the outcome 
of the deal, whether there is a successful deal, and there is 
improved relations, I don't know if there will be a sense of 
urgency to get any of our family members home anymore because 
it would be propaganda win for both the regime and for us--I 
guess it is a win for the administration, but there is no 
urgency anymore to increase the pressure and this is a very 
pressing issue that has lasted years for most of us.
    I think if the talks fail and there is no deal, we could 
lose the engagement and the constructive talks that we are 
having right now. And those could cease and we are back to 
square one, particularly for my family as well.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Levinson. Ms. 
Abedini, I saw that you were agreeing.
    Mrs. Abedini. Yes, I agree. I think these next few weeks is 
a very crucial time. If we don't get the Americans out, I don't 
know when we will have more leverage. I agree with Mr. Levinson 
that either way, we lose if we don't get the Americans out 
before an agreement is reached or not reached. We only have a 
few weeks left. And while we still have leverage, while the 
Iranian Government would still be motivated at some degree to 
release them.
    As I mentioned, as the family members have said, they are 
being held on bogus charges. There is no evidence. They are 
being held because they are Americans or because of their 
freedom of practice, freedom of speech, and religion. So I 
think this is a very crucial time.
    Ms. Ros-Lehtinen. I wanted to ask just in the minute 
remaining following up on Mr. Engel's question, what more can 
we do in Congress? What more can the administration do?
    Mr. Rezaian. Thank you for the opportunity and thank you 
for the concern for everybody. Not being a diplomat or a policy 
expert, I would say that the things that you are doing right 
now, bringing attention to the case, showing unanimity, and the 
bipartisan support that we have seen for this type of activity 
is certainly very helpful.
    Ms. Ros-Lehtinen. Ms. Hekmati?
    Ms. Hekmati. I was obviously again like Ali said, not from 
a policy expert, but maybe reaching out to bilateral 
governments that have a good relationship with the Iranians 
because they tend to resist any kind of interaction from the 
U.S. or the Swiss, for example, that were the intermediary 
before. So perhaps reaching out to foreign officials as well.
    Ms. Ros-Lehtinen. Mr. Levinson?
    Mr. Levinson. I also agree that for us the most important 
thing is to keep it in the eye of the administration and the 
American public because in this day and age, this is a great 
hearing and it is going to generate news and we need that, but 
in a few days, people may forget about it and they will likely 
forget about it. And then, we are back to where we were.
    And so seeing the U.S. Congress, making this such a 
priority is crucial to all of us. We have a limited window 
right now with the engagement going on and if we can at least 
keep it up through that and past that until all of our family 
members are home, it would mean the world to all of us I know.
    Ms. Ros-Lehtinen. Thank you. You are not alone. Thank you 
so much, Mr. Chairman.
    Chairman Royce. Mr. Ted Deutch of Florida, ranking member 
on the Middle East Subcommittee.
    Mr. Deutch. Thank you, Mr. Chairman. Mr. Chairman, first, I 
would thank all four of our witnesses for being here. I was 
reminded during your testimony of how much your four family 
members really reflect so much about what we value in our 
country. Obviously, the commitment to family that all four of 
you have expressed so powerfully.
    Mrs. Abedini, the role that faith plays for you and in our 
country. Ms. Hekmati, the story, the immigrant story that you 
described, your family coming, your parents coming to this 
country to provide opportunities for their children which is 
really also so much the story of our country and the service to 
our country that Amir bravely served as a Marine. Ali, freedom 
of speech and freedom of expression that we so often take for 
granted, it is impossible for us to do that as we listen to you 
talk about your brother. And as much as anything we are a 
nation that perseveres. And Dan, for 8 years and 3 months that 
you and your mother and your siblings have endured, you have 
persevered because 8 years and 3 months is just too long and he 
has missed, as you said, too much of your lives.
    And so I would ask, you have all been told, we have been 
told that these talks on the sidelines there is a focus on all 
four of your families. And you have answered what more should 
be done in our communication with our Government, other 
governments. I guess what I would ask you is to take advantage 
of this opportunity. If you were on the sidelines, if you were 
sitting with the Iranian foreign minister, what would you say? 
What would you tell them?
    Please, Mrs. Abedini?
    Mrs. Abedini. I would say no more discussions until first 
you release the Americans, and then we will talk further.
    Mr. Deutch. Mr. Rezaian?
    Mr. Rezaian. I think I would have to ask what do they think 
they are accomplishing? What are they doing to their own image 
if they want to join the community of nations which is their 
stated goal, become more normalized. How do they think that 
this helps them at all?
    Mr. Deutch. Ms. Hekmati?
    Ms. Hekmati. That is a tough question. I think just really 
trying to understand what leverage does these civilians who 
have no clout or leverage in winning over any kind of 
concessions for Iranians or with the United States. They need 
to be removed from this. So really just trying to understand 
what leverage they have.
    Mr. Deutch. Dan?
    Mr. Levinson. That is also a very tough question for us 
because we are just desperate for anything, any kind of 
answers, any acknowledgment that he is there, anything that 
will provide us, give us hope. So that would be the first 
start. We have been reaching out for that for years and we are 
just--we want anything.
    Mr. Deutch. Mr. Chairman, I would just finish by telling 
all of you, starting with you, Dan, we share your unwavering 
commitment to bring your family members home. And Ali so that 
Jason and Paxton can see an A's game this year. Naghmeh, so 
that you can bring your children's daddy home. Sarah, so your 
father, especially, has an opportunity to embrace his son. And 
Dan, so at this point, so you and your mother, Christine, your 
entire family, no longer have to celebrate milestones without 
your father.
    I would finish just by telling again to all four of you 
that we will continue to be your advocates and bring your 
family members home will continue to be a priority for 
Congress. We will continue to press to make sure that it is a 
priority for the administration, but I want to thank you for 
your willingness to come here today to testify because I think, 
Dan, you are right. We sometimes--we have a short attention 
span in this country, but it is impossible to hear the four of 
you share in the most personal terms the impact of the fact 
that all four of you are missing your family members without 
being moved by it. And so I am sure that after today, the 
American people will continue to stand by you, as we will, 
until your family members are brought home. We are so grateful 
for your participation.
    Mr. Chairman, I yield back.
    Chairman Royce. Mr. Chris Smith of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman. And I, too, 
want to thank our very distinguished witnesses, very powerful 
testimony on behalf of a son, a brother, sister, and of course, 
a husband. Hopefully, the Iranians are listening. It is still a 
country in relatively good standing at the United Nations and I 
would be wondering if any of you would like to speak to how 
well or poorly the U.N., the Human Rights Council or Ban Ki 
moon, for example, has he raised each or any of your cases 
personally with Rouhani and other high officials in the Iranian 
Government?
    I met with Zarif some years ago on behalf of Saeed Abedini 
and he commented to me and a few others who were in that 
meeting that this is different than Ahmadinejad's government, 
that Rouhani is different. And I said if you want to really 
demonstrate that difference, the bold stroke is human rights. 
Start with the Americans, Mr. Levinson. How many days, 3,000 
days? It wasn't 3,000 then, but it certainly was thousands. 
Release the Americans. And we will say a new page has been 
turned and that Iran is on a different trajectory than it has 
been on in the past under Ahmadinejad.
    Sadly, and with great tragedy, it seems it has actually 
gotten worse when it comes to human rights and the holding of 
four innocent Americans, the torture, the mistreatment is 
absolutely appalling and brings dishonor to the country or the 
government, not the country, and not the people, but the 
Government of Iran.
    And so I would tell you, your testimony by the grace of God 
will be heard by the ears of the Iranian leadership and Zarif 
and others--I mean Zarif was educated in Denver and in 
California. He knows Americans. He knows that human rights do 
matter and he talks a good game. It is about time he showed it 
with his actions.
    So my comments to you, we will persist on. Mr. Levinson, 
you pointed out that we need to keep this in the eye of the 
administration. Hopefully, they will keep it in everybody 
else's eye. This is something that should be talked about, 
discussed, not on the fringes and on the sidelines of the 
negotiations, but as a mainstay issue and whether the 
negotiations on nuclear issues succeed or fail, we will be 
there, I believe, as a Congress and hopefully, the President 
tenaciously pushing for the release until that happy day does 
arrive.
    Mrs. Abedini, you have mentioned that you have been to the 
European Parliament and the Bundestag. You might want to 
elaborate on how well received you were there, because 
obviously the European countries are very involved with the 
nuclear talks and they do care about human rights.
    And again, if any of you have any insights on whether or 
not the U.N. has been feckless and ineffective or whether or 
not they have embraced each or any of your cases, your family 
cases with the Iranian Government.
    Mrs. Abedini.
    Mrs. Abedini. Thank you, Congressman Smith. The U.N., I 
have spoken before the U.N. and I know Ban Ki Moon has raised 
that case with the Iranian Government. Recently, the working 
group of the United Nations released the report saying that 
Iran is breaking its own laws and international laws by holding 
Saeed in prison and they should compensate every day of his 
imprisonment. So the U.N. has continuously spoken out about 
Saeed's imprisonment. Many countries at the U.N. have spoken 
out.
    My recent trip to the European Parliament was very helpful. 
One of the Vice Presidents took Saeed on as a political sponsor 
and I was assured by many high officials at the European 
Parliament that Saeed's case would be raised, especially their 
foreign relations committees and their human rights committees 
were very involved.
    My trip to Germany and Berlin was very helpful. I met with 
Mr. Kauder who was one level down from the Chancellor and he 
was very helpful in making sure that Saeed's case is not only 
raised in the next few weeks during the talks, but also that 
Saeed's case is raised continuously with Iran and their human 
rights issues.
    I got to also meet with the head of the human rights group 
in all of Germany and also the Iran section and it has been 
very helpful both with the European Parliament and the German 
Parliament working with their foreign relations and their 
religious freedom or their human rights group. It was very 
helpful. I received a lot of commitments and promises to 
advocate not only for Saeed, but also for religious freedom and 
human rights issues in Iran.
    Mr. Smith. Thank you. I see I am out of time.
    Hopefully, the Special Rapporteur also raised it with the 
Iranians.
    Chairman Royce. Thank you, Mr. Smith. Mr. Lowenthal? Mr. 
Lowenthal is going to pass. Mr. Keating. Mr. Keating will pass. 
Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman, and again, thank you 
and ranking member for allowing me, a person who is not a 
member of the committee, to participate in this important 
hearing.
    First of all, the committee will take up a resolution that 
will call for the immediate release of Amir Hekmati and the 
others. Amir is my constituent, somebody that I feel--though I 
have never met Amir, I have become very close with the Hekmati 
family and I feel as though I know him. And if he is anything 
like you, Sarah, or your parents, it is no wonder that he has 
been able to sustain himself in nearly 4 years in one of the 
worst places on earth. The strength, the will that you 
demonstrate, obviously is something, and the other family 
members demonstrate, is something that your family members 
obviously share.
    We have over 160 Members of Congress that have co-sponsored 
this resolution and at a time, we have to acknowledge this, at 
a time when there is very little agreement often on big 
questions that we are trying to wrestle with here in Congress, 
it is really important that this Congress speak with one 
unified voice on behalf of the millions and millions of people 
that we all represent and make sure that Iran hears loud and 
clear that they cannot be accepted into the international 
community if they continue to hold innocent Americans who are 
guilty of nothing other than being Americans against their 
will, for whatever political purposes they think they are 
achieving.
    And so I thank the chairman and the ranking member for 
working with me to present this language to the committee. And 
I hope other members that have not yet signed on will do so and 
that we can get a resolution to the floor as soon as possible.
    One other point that I would like to make and then I have a 
question or two. The P5+1 negotiations, the nuclear 
negotiations with Iran do provide something that we have not 
had in 35 years and that is the opportunity for direct, 
acknowledged, direct bilateral discussions between Iran and the 
United States. But I do think that it is important and I have 
heard loud and clear some of the comments made by other members 
and I share the frustration, but I think it is really important 
that we make it clear that the onus is on Iran to release these 
Americans if they expect any negotiated agreement or any other 
engagement with the rest of the world to be taken seriously.
    And I say that to especially underscore the point that the 
freedom of Mr. Rezaian, Mr. Abedini, Amir Hekmati, Mr. 
Levinson, the freedom of these innocent Americans should not be 
exchanged for any concession regarding Iran's nuclear 
capabilities or any reduction in economic sanctions that have 
forced them to the table. Iran must act unilaterally if they 
expect any agreement or any engagement to be taken on face 
value. So I think that is an important point and it is 
important that we understand this moment provides us the chance 
to engage Iran on this question, but that we not conflate the 
freedom of these Americans with the items that are being 
negotiated regarding those nuclear capabilities.
    No American, and I know Amir feels this way, wants to be 
exchanged for something that we would grant to Iran regarding 
their ability to threaten the safety of the rest of the world. 
Iran must act unilaterally and the U.S. must continue to press 
that point. I think that is a really important distinction.
    For me, as many of the members know, this has sort of 
become personal and I hope that that is the case for other 
members. I know it is for the other members that represent the 
families here, but I hope for all members we look at this as a 
personal mission. These are American citizens. These are people 
who are part of us and we need to do everything we can. We need 
to press Iran and press our administration to be as strong as 
we possibly can.
    Sarah, I wonder if you might talk to us a little bit about 
the contact that you--I know there has been occasional, not 
much, occasional contact, but there was some discussion about 
how Amir is doing. Can you expand a bit on how he is doing 
physically and emotionally? I know the last few months 
especially have been particularly trying for Amir. If you could 
just tell a little bit more of his story in terms of how he is 
doing now, I think that would be helpful.
    Ms. Hekmati. You know, it is a testament to Amir's 
character to note that Amir, when he learned that my father was 
diagnosed, it was late in the game. My father was already 
diagnosed with cancer and was undergoing treatment and Amir had 
no idea. We did not have any contact with Amir for the first 2 
years, no phone calls were allowed. We were not allowed to send 
letters. However, as of this past year, he has been allowed 
short phone calls. They are sanctioned phone calls, obviously. 
My mother is the primary person that receives the phone calls 
and he has his moments of hope when he hears that there is new 
developments in the political climate between the U.S. and Iran 
and then sometimes that hope falls. Obviously, he is always 
cautiously optimistic, but holding his breath because he knows 
that he has been strung along for now going on 4 years.
    And you know, it is just a testament to him as much as this 
is really--you know, he has referred to his situation in some 
instances as he has died 100 times in this situation, so much 
so that he has become numb and just hardened himself to the 
fact that he doesn't know. Like he has to kind of resign to 
maybe he is stuck here for 10 years. He doesn't want to hold 
that in his mind. He wants to have hope. So we want to be able 
to give him hope, but it is almost psychological torture for 
our family to have his phone calls every day for 5 minutes and 
then to say what is new? And there is nothing new for us to 
give him. It has been painful for him and for us as well.
    Mr. Kildee. Thank you. Thank you, Mr. Chairman.
    Chairman Royce. Thank you. Mr. Dana Rohrabacher of 
California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and I 
thank the witnesses. I thank you personally, Mr. Chairman, and 
Ranking Member Eliot Engel for providing leadership in issues 
like this that you both continue to make us proud to serve on 
this committee.
    I was in the Reagan White House during the Iran Contra 
fiasco and it started with concern about hostages being held by 
radical Islamists and a negotiation with the mullah regime to 
try to get them free. That turned into an absolute fiasco and 
we should have learned our lesson and you do not negotiate with 
the Iranian mullah regime as long as it is holding the 
hostages. And if you say we will not be negotiating with you, 
that will give them some reason to actually let them go.
    I don't think that they pay any attention to the 
expressions of sympathy and solidarity that we have heard 
today. They don't care what we say here. They don't care what 
we think, as long as we don't have some action behind what we 
are talking about.
    Now I support this resolution. I think it is a first good 
step. And I thank our leadership for bringing it forward and 
focusing the attention of this committee on this issue. I would 
hope that when we get done, however, that my colleagues would 
join me and our leadership would work with me on legislation 
that would suggest that if the mullah regime continues to hold 
these hostages, and we consider it an illegal holding of 
hostages, that any representative of the mullah regime that 
goes outside the borders of Iran would be susceptible of being 
taken into custody and held until the hostages are free. Maybe 
they would listen to that. Maybe they would be--if we arrested 
one of the leaders that is responsible for holding your 
families and held them, saying you are engaged in blackmail. 
You are engaged in an activity that we consider to be illegal, 
then you will be held until those people are free, until your 
government has changed its policy. We have to do something like 
that or they will not pay attention.
    And one last thing about the negotiations we have had, the 
fact is that the negotiations we have had with the mullah 
regime and thinking how important it is for this nuclear 
agreement, even though we realize if we make an agreement with 
them on this nuclear facility so that it can't produce the 
material for a nuclear weapon, even if we get that, they can 
buy a nuclear weapon. They can buy it. Twenty-five million 
dollars, they go to Pakistan or North Korea or whatever. But 
what these negotiations have done have prevented us from being 
tough on issues like this, where we should be tough because it 
means something. So I again thank the chairman, I thank the 
witnesses for bringing this to our attention. I hope that we 
actually get together now, now that the leadership has brought 
up the issue, put it on the table. I hope we come up with a 
solution that is going to get their attention and force 
decision making by the mullah regime.
    Thank you very much, Mr. Chairman. Thank you to the 
witnesses.
    Chairman Royce. Thank you. We go now to Robin Kelly of 
Illinois.
    Ms. Kelly. I don't really have a question. I just want to 
thank you for coming here and sharing your stories with all of 
us. I really appreciate that and I hope that something can be 
done where your relatives are freed. And I just want to thank 
Representative Kildee for his leadership in this effort. So 
thank you for being here.
    Chairman Royce. Mr. Michael McCaul of Texas.
    Mr. McCaul. Thank you, Mr. Chairman. I want to thank the 
witnesses. I was a Federal prosecutor for many years and we 
have due process in this country. We have freedom of religion. 
And I look at these charges and I mean it is unreal.
    Ms. Abedini, your husband's crime was attending peaceful 
church gatherings for, as you put it, believing in Jesus Christ 
is a threat to the national security of the Iranian Government. 
I just find that astounding and for that belief, he is thrown 
into prison. What does that say about our negotiating partner? 
Are they really acting in good faith?
    And Ms. Hekmati, your brother being put in a one meter by 
one meter cell and beaten and tortured, I can't imagine what he 
is going through. And I know you think about it every day of 
your life. And what is his crime? Corrupting the earth and 
being an enemy of God? Cooperating with the United States? What 
kind of charge is that?
    And now all the while we are doing these negotiations, it 
seems to me, Ms. Abedini, as you mentioned, now is the time to 
increase the pressure to release these American hostages. Now 
is the time we have the negotiations and I would argue you are 
absolutely correct. We should halt these negotiations until 
these prisoners are released. We should stop the negotiation 
until they agree to release our American hostages first and 
foremost. But I am afraid that is not going to happen.
    I am concerned also about what are we doing to facilitate 
the release of your loved ones. We have had witnesses come 
before this committee from the administration that talk about 
this issue, but we get very little information. I wanted to 
just ask each one of you what has the administration done to 
further the release of your loved one? And I will start with 
Mr. Rezaian.
    Mr. Rezaian. Well, I think I am fortunate because it is 
possible the administration learned some things from some of 
the previous situations. I have been in touch with State 
Department. They have spoken with the Iranian Government. They 
have worked with the Swiss protecting power as well, although 
the Iranians won't give Jason access to consulate access. So 
those kinds of things.
    And they have been in touch on numerous occasions. When I 
have questions, I am able to contact them.
    Mr. McCaul. Ms. Abedini?
    Mrs. Abedini. I have been in contact with the State 
Department regularly. They share with me, as Ms. Hekmati has 
mentioned, that they are being discussed on the sidelines and 
the Iranians are not really responding to that. And if we 
continue this talking for the last 3, 2, over 2\1/2\ years, 
almost 3 years of talking on the sidelines, it is not really 
working. Still they are not released. It has been almost 3 
years for our family and in a few weeks it will be 3 years 
since we have seen Saeed.
    My frustration is that I appreciate that they are being 
discussed on the sidelines, but they are still not home. Where 
is the action? Where are the results? I don't see any result. 
Iran continues to shrug it off and not really respond to our 
discussions on the sidelines. As I mentioned, this is crucial 
time. Iran has to feel some pressure to want to release the 
Americans. They are not going to do it through sideline 
discussions and just chit-chatting. I hope there is some 
pressure as this is a crucial time to bring these Americans 
home. And the pain and suffering of all of our families. Even 
one day, we would appreciate it.
    Mr. McCaul. American hostages should be the priority, not 
be placed on the sidelines.
    Mrs. Abedini. Exactly.
    Mr. McCaul. Ms. Hekmati?
    Ms. Hekmati. Right, just to chime in with the rest. It 
pretty much has been a lot of our family informing them of what 
has been going on and the process in Iran and then being 
reassured that it is a priority and that it has been raised. 
Obviously, they have done some facilitating of engagement with 
governments that are bilateral, have a bilateral relationship 
with the U.S. and Iran and reaching out to them. And they have 
reassured us that they have these nations. Whenever there is an 
opportunity to engage with the Iranians that they reach out and 
they ask about the cases of the prisoners being held there.
    However, again, I reiterate prior to us even having this 
face-to-face engagement, these prisoners that were American 
that have been released have never been held as long as, for 
example, Amir, and he is going on 4 years where we are sitting 
face-to-face. So I am wondering how effective is this raising 
of it on the sidelines of these negotiations really at this 
point? And I think that we are beyond that.
    Mr. McCaul. I see that my time is expired, but Mr. 
Levinson, just very quickly.
    Mr. Levinson. I am afraid we are in the same boat because 
right now it has been on the sidelines, but for years we didn't 
have any kind of engagement, so this has been progress. My 
father is a retired FBI agent, so we have been working very 
closely with the FBI, but they had limited powers in what they 
can do.
    I just want to note real quick in case someone--there are 
people watching this online in Iran, the FBI has offered a $5-
million reward for the safe return of my father. So we would 
like that to be highlighted as well.
    Mr. McCaul. It is a good point. Thank you, Mr. Chairman.
    Chairman Royce. We go now to Mr. Matt Salmon, chairman of 
the Asia Subcommittee.
    Mr. Salmon. Thanks a lot. First of all, Ms. Hekmati, I just 
wanted to acknowledge the fact that your brother was born in 
Arizona in Flagstaff where I am from and a lot of prayers and 
thoughts are coming from Arizona.
    The other thing I wanted to comment on is that I think you 
have one of the greatest advocates in the universe helping you 
with Montel Williams. He is great guy. I have never seen a 
Marine in trouble that he didn't step forward to bail out. 
Worked with him on Andrew Tahmooressi. And I just think the 
world of Montel Williams. He is an American hero. You have got 
the right guy helping you out.
    Ms. Hekmati. We were all born in Flagstaff.
    Mr. Salmon. That is great. We love Flagstaff.
    Ms. Hekmati. We do, too.
    Mr. Salmon. Mrs. Abedini, I just wanted to make a comment 
to you how moving your testimony of Jesus Christ was to me 
personally. You know, in some of my darkest hours in my life 
when I thought that there was nobody for me, he was. And when I 
was a young missionary for the Mormon Church in Taiwan, I had 
some cards printed up that ``a true friend is one that walks in 
when the rest of the world walks out.'' What I found in my life 
is he always walks in. I was very, very moved by your 
testimony. And I wanted you to know that I truly do believe 
also he won't let you down.
    We do hold the cards, folks. We do hold the cards. We just 
voted a few weeks ago to require a vote by the Congress on any 
deal that the Obama administration strikes with Iran and I 
think we should state unequivocally both from the House and the 
Senate that any deal with Iran is dead on arrival that doesn't 
include the release of these prisoners. That is what we should 
say. And we should do it either through a joint letter of 
Members of Congress. A number of us from the House and the 
Senate side, I think if we can achieve a critical mass saying 
that any deal is dead on arrival that doesn't deal with this 
prisoner release. And I think that we say that I know right now 
it seems like the President wants a deal more than life itself 
on this nuclear thing which I am very, very skeptical about to 
begin with. But it seems like that ought to be the one 
fundamental thing that we can all agree on. If it doesn't 
include that, it is done.
    Mr. Rezaian, I am curious about the charges of your 
brother. Do you have any idea of how the Iranian Government 
became aware of your brother's American visa application 
submitted to the U.S. consulate in Dubai and the letter that he 
wrote to the Obama administration as part of a job application? 
Has there been any investigation how they were able to obtain 
that information that they are using as evidence against your 
brother?
    Mr. Rezaian. Our assumption is it came from his computer. 
When they came, they took his computers, phones, all those 
kinds of things. So we believe that is where it came from.
    Mr. Salmon. I learned early in my youth when I was a little 
boy I got picked on by a bully in the school yard and the only 
thing that bullies understand is a punch in the nose. And I 
think that is how we have to deal with Iran.
    Look, on this deal that they are talking about that the 
President is negotiating, it means billions and billions and 
billions of dollars to these guys. The very least we can do is 
step forward and say any deal is dead without the release of 
these prisoners and I yield back the balance of my time.
    Mr. McCaul [presiding]. The Chair recognizes Mr. Duncan 
from South Carolina.
    Mr. Duncan. Thank you, Mr. Chairman. I am sorry. I am sorry 
the United States Government has failed you and your families. 
These prisoners are American citizens and that should mean 
something. It does to the men and women in this room and the 
United States Congress, the 160 plus people that have signed 
this resolution, the 90 people in the Senate that voted for a 
similar resolution.
    You know, I think about the fact that more attention was 
given to the Natalie Holloway disappearance in Aruba 10 years 
ago than has been given to your loved ones imprisoned in Iran.
    I want to take this moment to thank those that are around 
the world that are praying for you and your families. I join 
them in those prayers and ask that God will keep you from 
having that pain every morning that you have talked about, Mrs. 
Abedini. That God will comfort them wherever they may be, 
whatever jail cell, or situation that they are facing today, 
that they will understand that there are folks here in the 
United States that love them and care for them and are doing 
everything we can to effect their release.
    I agree with Mr. Kildee when he said that there shouldn't 
be any quid pro quo here with negotiations with Iran over their 
nuclear weapon. That is an issue that America doesn't want to 
see in the Western world and the free world doesn't want to see 
Iran have a nuclear weapon. But if Iran wants to enter the 
international community and be taken seriously, they need to 
release these prisoners that were taken forcefully from an 
apartment of their loved ones. These are American citizens.
    We have seen the United States Senate pass by a vote of 90 
to nothing, a non-binding resolution stating that the United 
States Government should undertake every effort, using every 
diplomatic tool at its disposal to secure their immediate 
release.
    We are getting ready to pass the same thing by a vote in 
this committee. I look forward to the opportunity to talking 
about your loved ones from the floor of the United States House 
of Representatives continuing to raise awareness. But this is a 
resolution. What can we do? You heard the gentleman from 
Arizona, Mr. Salmon, talk about we have tools at our disposal, 
pieces of legislation that give the United States Government 
leverage over this regime, leverage with more sanctions. We 
shouldn't be lifting any sanctions until these prisoners are 
released because these prisoners are American citizens and that 
is what America is about.
    Congress still retains that ability. Do you believe that 
further legislative action is necessary? What more can we be 
doing? I am going to ask each one of you, what more can we be 
doing?
    Mr. Rezaian.
    Mr. Rezaian. As I said before, I am not a policy expert. 
You guys are the policy experts. I am in favor of any kind of 
activity from you guys, from Congress, from the President and 
the State Department that would get Jason out as soon as 
possible. I will leave it to the experts to decide.
    Mr. Duncan. Ms. Abedini.
    Mrs. Abedini. I would say help bring my husband home before 
you consent to any deal. When you are reviewing the deal, 
consider whether they are home or not. Thank you.
    Mr. Duncan. I want to ask you real quick. You said you were 
in communication with the State Department. Do they call you or 
do you call them?
    Mrs. Abedini. They call me, both, when I have updates I 
contact them, but they contact me regularly. It has been very 
good communication, especially the last year. Again, it is 
always discussed on the sidelines and Iran continues not to 
respond.
    Mr. Duncan. That is good that they call you and you are not 
in the dark. I appreciate that.
    Ms. Hekmati, what more can we be doing?
    Ms. Hekmati. I mean obviously in my limited knowledge of 
what you can do, I just think continuing to keep this in the 
forefront of this administration, especially when Secretary 
Kerry is engaged with them and what is the response and 
continuing to push and understanding what it is going to take 
to bring them home. I just don't want this to be forgotten.
    I know when the hostages were taken in '79, this was 
something we as a family have a countdown of how many days he 
has been in prison. I think that countdown needs to exist for 
all of the prisoners and it needs to be visible.
    Mr. Duncan. Thank you. Mr. Levinson?
    Mr. Levinson. As I mentioned, keeping it in the headlines 
is ultimately most important and we are just ordinary Americans 
and we are doing our very best, but you guys are the ones who 
can make the headlines. And I know in a couple of days, God 
willing, they get home in the next couple of days, but it is 
very unlikely that will happen. The next couple of days, when 
you get home and you see that it out of the headlines, think 
about what can you do to keep this in the public eye. What can 
you do to keep the pressure up on our Government to make sure 
it is not forgotten.
    I know I will go home and I will think about my dad all 
day, every day, and Americans won't be doing that. And in a 
couple of days, can you remember our family members who are 
suffering over there and think about what they are doing when 
you are brushing your teeth, when you are at home with your 
kids, thinking about what they are missing out on. And if you 
guys have any power to remind everybody in the world what is 
going on, please use any tools at your disposal.
    Mr. Duncan. And it happens. And you all please know your 
loved ones have not been forgotten. Every day the floor of the 
United States House, someone goes to the floor with a 1-minute 
speech to remind Americans, and I want to thank the gentleman 
sitting behind you, Montel, for staying engaged in this.
    As I talked about, Natalie Holloway's case, 10 years ago 
had all of this national attention. Where is the national 
attention for their loved ones that are in prison in Iran? 
Thank you, Mr. Chairman, for the leniency and I yield back.
    Chairman Royce [presiding]. Thank you. We go now to Mr. 
Randy Weber of Texas.
    Mr. Weber. Thank you, Mr. Chairman. I thank you all for 
being here today and I have some real quick questions.
    Mr. Rezaian, when was the last time you spoke with your 
brother?
    Mr. Rezaian. We spoke in July about 3 days before he was 
taken. He was planning to come on vacation to the U.S.
    Mr. Weber. Mrs. Abedini, when was the last time you spoke 
with your husband?
    Mrs. Abedini. The Iranian Government hasn't allowed any 
calls. His father visits him in prison every Wednesday.
    Mr. Weber. But when is the last time you personally spoke 
with your husband?
    Mrs. Abedini. Before his sentence in January 2013, there 
was a sanctioned call for probably about 4 or 5 minutes.
    Mr. Weber. So about 2 years, 4 months ago, give or take?
    Mrs. Abedini. Yes.
    Mr. Weber. Ms. Hekmati, when is the last time you spoke 
with your brother?
    Ms. Hekmati. Me, personally, a week ago, for 5 minutes. And 
again, I noted that he has been able to call almost daily for 
about 5 minutes.
    Mr. Weber. And Mr. Levinson, your dad?
    Mr. Levinson. March 8, 2007, 3,008 days ago.
    Mr. Weber. Over 8 years ago?
    Mr. Levinson. Yes.
    Mr. Weber. I hope the administration is paying attention. 
You all are real people with real lives and real pain. This is 
really bad, real bad, real serious. None of us wanted this. I 
don't feel like we started this. This regime, and I will call 
them a thuggish regime, has started holding hostages in '79 and 
for the administration to be negotiating with these thugs in my 
estimation is just real foolishness.
    I think and I appreciate my brother Duncan's comments over 
here that somebody goes to the floor of the House daily with a 
1-minute to remind the American people how really bad this is 
and I appreciate his comments.
    I think Congress should get real serious. No agreement 
period until Iran releases the hostages. They want to re-enter 
the world community. We keep hearing they want to re-enter the 
world community. Well, if they want to do that, then they need 
to get real serious right now. I just hope that John Kerry, 
President Obama, and everybody on their team that is in the 
negotiation phase would quite frankly come to their senses and 
say if human rights isn't everything, isn't the main thing when 
you are dealing with this kind of regime, how can you trust 
them on anything else?
    And so I just hope and pray that our President and John 
Kerry wakes up and understands the dilemma that is before us 
today and how long it has been going on. Mr. Levinson, 3,000 
days?
    Mr. Levinson. 3,007.
    Mr. Weber. 3,007. This is unconscionable that we would be 
dealing with a regime like that. And if this hearing, if 
nothing else, if you all being willing to come out and through 
your pain and share with us, so that we can get some attention, 
if our President and our Secretary of State would pay attention 
and make this an issue, then we might be able to help bring 
your loved ones home and I pray real soon.
    And Mr. Chairman, I am going to yield back before my time. 
Thank you.
    Chairman Royce. Mr. Darrell Issa of California.
    Mr. Issa. Thank you, Mr. Chairman. I want to thank our 
witnesses for being here today. Usually, when we have 
witnesses, their testimony is a series of complex facts. Today, 
very clearly your facts are pretty simple. We have a rogue 
nation that has been a rogue nation since 1979 when it took our 
Embassy in violation of all sensibilities in the global 
community, held them, blaming, pointing fingers at students 
when, in fact, it was the new government that took those 
hostages, those diplomats, many of them covered by 
international diplomatic immunity.
    Your loved ones are not covered by diplomatic immunity, but 
they should be covered by the sensibility of fair and honest 
trials and they are not. So you have this committee, I think, 
on an incredibly bipartisan basis support that we will, in 
fact, continue to use such powers we have, including 
resolutions and opposing the President's normalizing of 
relations with Iran in any way as long as not just they do or 
don't have nuclear ambitions, but they do or don't respect the 
rules of the civilized community and whether that is unlawfully 
keeping your loved ones in various levels of detention support 
for Hezbollah and Hamas, the various global terrorism they have 
supported, or in fact, their continued attempt to destabilize 
country after country throughout the Muslim world.
    So like many of the members here, there aren't a lot more 
questions to be asked of you. You have done a great job of 
explaining the plight of your loved ones. I do very much 
support the chairman's effort to make it very clear that Iran 
has to change its ways in three ways: Abandon its nuclear 
desires; treat both their own citizens and their visitors with 
a level of respect and rule of law that they clearly do not at 
this time; and stop their attempt to destabilize countries in 
the world, but particularly within their region.
    And so, Mr. Chairman, I, too, will be yielding back, but I 
would ask if any of the witnesses wanted to add anything from 
their observations to things that we should be aware of in our 
deliberation here relative to Iran. Again, thank you. And I 
yield back.
    Chairman Royce. We go to Mr. Meadows of North Carolina.
    Mr. Meadows. Thank you, Mr. Chairman. Thank each of you for 
being here today and sharing your personal story.
    Mr. Levinson, today is the first day that I have met you, 
but I feel like I have known your family because Mr. Deutch on 
each and every hearing, he hasn't missed one, has raised this 
particular issue with the Secretary of State, Mr. Kerry, 
sitting at that same table, he has done that. So I feel like I 
know your family. Honestly, I had to Google it the first time 
that he mentioned it, and shame on me for that.
    For many of you, this is the first time I have met you, but 
Ms. Abedini, it is not the first time for us. I just need to 
ask your forgiveness, because we have been working very hard to 
get your husband who is a U.S. citizen and his only crime was 
that he cared about other people. And this goes back many, 
many, many months. We met in New York. I met, at that 
particular time, with Foreign Minister Zarif, personally and 
raised this issue. We have had conversations. We have had 
hearings. We have talked to the State Department. And each and 
every time we wanted to make sure that we did no harm, that we 
were gentle in our negotiations to make sure that we didn't 
create a worse situation for your family members.
    I have run out of patience. The time is now. The time must 
be now and we have heard these words from Mr. Kildee, who is 
advocating on behalf of a constituent. This is a bipartisan 
issue. It is not Republican or Democrat. We have come together.
    But we have failed many of you and what I want to make sure 
that is clear, the message to Iran today is in the late '70s 
there were thugs and terrorists that took hostages and they 
wore ski masks and dark clothing. And the only difference today 
is that the terrorists and thugs wear suits and give the 
illusion of being international diplomats. That is not the 
case.
    So you have my commitment that I won't vote for a deal. I 
will advocate tirelessly with my colleagues on both sides of 
the aisle to make sure that no deal is signed until your family 
members come home. And it is a precondition of what we must do. 
It is not a sidebar. It is not a note that we are doing soft 
diplomacy. It is time for real, hard facts and it is time that 
we demand that U.S. citizens return home to their families.
    So you have my apologies for not being effective. I pray 
that there are no more birthdays, anniversaries, or holidays 
that are missed, until they come home.
    And with that, Mr. Chairman, I yield back.
    Chairman Royce. Mr. Lee Zeldin of New York.
    Mr. Zeldin. Thank you, Mr. Chairman. And as I listen to Mr. 
Meadows, we are all reminded of the passion and emotion and 
investment that so many of my colleagues have toward this 
effort. I am honored to serve with them in moments like now 
where you see that kind of passion on both sides of the aisle, 
both Republicans and Democrats from all across America who want 
to be part of the successful effort to bring back your loved 
ones.
    I also very much appreciate the fact that you have gotten 
individuals with followings from around America to take up this 
cause to raise awareness because I think that is a key part of 
this effort is to raise awareness as to what is going on. It is 
hard to work your way through Twitter without coming across a 
hashtag #FreeAmirNow. I know that people like Montel Williams 
go on national TV to help the cause. I personally don't believe 
the negotiations should have started without freeing your loved 
ones.
    The President of the United States believes in making good-
faith concessions when he starts negotiations with other 
countries. The President of the United States made a slew of 
dozens of concessions before starting a negotiation with Cuba. 
Right now, our leverage is being negotiated away at the table 
and I am concerned with everything that isn't part of the 
negotiation right now including returning your loved ones back 
to your homes so you can be able to start enjoying holidays 
together again.
    The President of the United States has this burden on him 
and I would greatly encourage him in his foreign policy 
approaching his last year and a half in office as he is 
negotiating with Iran to not only avoid negotiating away his 
leverage and his diplomats' leverage to bring your loved ones 
home, but not to undercut and handicap whoever the next 
President of the United States is because if this President 
isn't getting the job done, the next one is going to be faced 
with that burden and I want to do everything in my power 
because this cause really shouldn't outlast this Presidency, 
but there will be challenges that the next President will be 
inheriting. So my personal opinion is these negotiations 
shouldn't have started without that good faith concession being 
from Iran.
    I would like to also say thank you to Congressman Kildee, 
Congressman Deutch for their leadership on this effort. As I 
mentioned in a past hearing, actually I have more members, 
family members in Congressman Deutch's district than my own 
down in Florida. I am Jewish. The pilgrimage for New York 
Jewish families to make the trip to Boca, that is going back to 
the homeland for us. But we are all uniting for a very worthy 
cause that hopefully we can come back here and have something 
great to celebrate.
    But the very real threat of negotiating away that leverage 
for this President, our diplomats, or the next, is something 
that we need to take very seriously. Because if Iran doesn't 
have the incentive now when they are pursuing that $50 billion 
signing bonus, or the $140-plus billion that is following right 
behind it, as they are working to overthrow foreign 
governments, sponsoring terrorism, pledging--chanting ``Death 
to America,'' developing ICBMs, but there is no conversation 
that can be complete without talking about what is not part of 
the negotiation, without talking about United States citizens 
being unjustly imprisoned by the Iranian Government and those 
who love America. And that is a cause worth fighting for with 
as much passion, conviction as we saw Mr. Meadows have just 
now. Thank you for your efforts and thank you for all of your 
supporters for helping advance the cause. I yield back the 
balance of my time.
    Chairman Royce. Mr. Donovan of New York.
    Mr. Donovan. Thank you, Mr. Chairman. I just have two quick 
questions. As you heard when I was first introduced about 2 
hours ago, this is my very first hearing and I just had a baby. 
I think about if someone had ever taken my baby, she is only 14 
days old, what I would do to get her back. And I think about 
your loved ones and your loved ones are America's children. We 
should do everything in our power to get your loved ones back.
    I just have two quick questions. I thought, Ms. Hekmati, 
that you had told us that you are informing the State 
Department of the process of your brother's captivity, that it 
is not the other way around.
    Do each of you have someone from the State Department who 
is your liaison that you could call any time, day or night, to 
find out the status of your loved one? Do each of you have 
someone that you can do that with?
    And my other question was the four of you, your courage to 
come here, your tenacity to fight for the freedom of your loved 
ones is unequivocal. Are there other families that you are 
aware of that aren't here who are suffering the same fate as 
you are? Are there other families that you are aware of who 
have loved ones who are being held captive that you are aware 
of?
    Mrs. Abedini. Many Christians, unfortunately, are being 
held captive or in prison in Iran. So I know a lot of families 
that are imprisoned simply because they are Christians.
    Mr. Donovan. American families?
    Mrs. Abedini. Not American, but Christian.
    Mr. Donovan. Thank you. Thank you, Mr. Chairman. I yield 
back my time.
    Chairman Royce. Any other members seeking recognition? 
Well, this then would conclude our hearing.
    Again, we want to thank the witnesses. We deeply appreciate 
you coming to Washington to testify today and we will be in 
contact with the family members as we continue our efforts. We 
deeply appreciate your courage and we are very, very sorry for 
what each of your families have been through.
    So at this point though, we have to conclude this hearing 
and we will now go to the markup on the resolution. If you 
would like to stay for that markup, we appreciate also your 
support for the resolution by Mr. Kildee which we are about to 
bring before the committee. So we stand adjourned for the 
hearing.
    [Hearing adjourned.]
    Chairman Royce. We meet pursuant to notice. I am going to 
ask that the committee to come to order and members to return 
here to the committee for the markup.
    We meet pursuant to notice to mark up a single resolution. 
The clerk will take her seat.
    I now call up House Resolution 233 expressing the sense of 
the House of Representatives that Iran should immediately 
release the three United States citizens it holds, as well as 
provide all known information on any U.S. citizens who have 
disappeared within its orders. Without objection, the 
resolution is considered read and open for amendment at any 
point.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
    
    Chairman Royce. All members may have 5 days to submit any 
questions or extraneous material for the record.
    After opening remarks from myself and the ranking member, I 
will be glad to recognize any others seeking recognition and I 
will yield myself right now such time as I may consume.
    I again want to thank the family members who testified at 
this morning's hearing. I also want to thank the author of this 
measure, Congressman Kildee of Michigan, as well as those 
members who continue to stress how important it is to this body 
and to the American people that these Americans come home.
    I am a proud co-sponsor of this resolution as are many 
members on this committee and this resolution rightly points 
out that if Iran truly wishes to engage constructively with the 
rest of the world, step one would be releasing these Americans 
and allowing them to be reunited with their loved ones.
    Last month, the Senate passed a similar resolution of a 
vote of 90 to 0 and I look forward to the House taking up this 
measure with a similar show of unanimous support. And I now 
recognize the ranking member, Mr. Engel, for his remarks.
    Mr. Engel. Mr. Chairman, thank you for bringing forward 
this resolution which, of course, I support. And thanks to the 
Members of Congress and in particular, Mr. Kildee, who as I 
said before has been relentless in this, talking to me all the 
time about this, and won't rest until the hostages are all 
free. So thank you, Mr. Kildee for all your hard work.
    I want to also thank Mr. Deutch, Mr. Labrador, and Mr. 
Huffman, along with Mr. Kildee, who represent the families of 
the detained and missing Americans in Iran, for their 
leadership in pressing this issue and ensuring that these 
Americans are not forgotten, will never be forgotten until we 
get them home.
    I want to thank our witnesses for joining us earlier today. 
These men and women come from different walks of life, but what 
they share is the daily uncertainty about family members, all 
American citizens, and we should stress that. This is about all 
American citizens, missing or detained in Iran.
    I wish we knew more about the conditions for these four 
Americans, but in these cases, Iran, as usual, isn't playing by 
the rules. I can't say that is a huge surprise.
    Mr. Chairman, typically, if an American were detained in 
Iran, our Swiss interlocutors would have access to them for 
consular services. In the cases of these three Iranian-
Americans, Iran doesn't acknowledge their dual citizenship, 
only their Iranian citizenship. This position runs roughshod 
over long, established international law. Without consular 
access, we can't judge the health and welfare of our own 
people. The United States respects this access for Iranian 
citizens held here. Reciprocal privileges are the least they 
could provide.
    Sadly, Robert Levinson's whereabouts are unknown as we 
heard in the testimony. I simply don't believe that the 
Iranians have been forthcoming about his status. If he is 
indeed a hostage, he is now the longest-held hostage in 
American history. Some argue that we should tie Iranian 
cooperation on this matter to the outcome of the nuclear talks. 
I feel that way very often. It is absolutely ludicrous that we 
are negotiating with a government that is holding our citizens 
to languish in Iranian jails.
    We remain deeply concerned about Iran's imprisonment of 
Americans and the lack of information about the whereabouts of 
Robert Levinson. This is a bipartisan concern. It doesn't 
matter where you come from in this country or what your 
political affiliation is. We want to see all the hostages home 
safely to their families.
    I think it is clear from the emotional testimony we have 
heard here today that when it comes to these missing and 
detained Americans, Iran can do much more to help bring these 
Americans home to their families.
    So I am glad we are doing this hearing. Mr. Chairman, I 
thank you for doing this hearing. This has been a great, once 
again, bipartisan collaboration on the part of the Foreign 
Affairs Committee.
    And again, I want to thank our colleagues, particularly Mr. 
Kildee, for coming here and working with us in partnership and 
we are not going to stop until we get these people home.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel. Do any other 
committee members seek recognition to speak on this measure?
    Are there any amendments? Hearing no further questions from 
members, the Chair now moves that the committee agree that 
House Resolution 233, all those in favor say aye.
    [Ayes.]
    All opposed no. In the opinion of the Chair, the ayes have 
it and the resolution is agreed to and without objection the 
measure is ordered favorably reported and the Chair is 
authorized to seek consideration under suspension of the rules. 
Thank you, members, and we now stand adjourned.
    [Whereupon, at 12:09 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


        [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
